SUPREME COURT OF ILLINOIS
WEDNESDAY, MAY 26, 2021
THE FOLLOWING CASES ON THE LEAVE TO APPEAL DOCKET WERE DISPOSED
OF AS INDICATED:

125430

People State of Illinois, respondent, v. Anthony L. Meads, petitioner.
Leave to appeal, Appellate Court, Fourth District. 4-17-0229
Petition for Leave to Appeal Denied.

125520

People State of Illinois, respondent, v. Steven L. Forest, petitioner.
Leave to appeal, Appellate Court, Third District. 3-17-0423
Petition for Leave to Appeal Denied.
Carter, J. took no part.

125904

People State of Illinois, respondent, v. Sergio A. Mayen, petitioner.
Leave to appeal, Appellate Court, Fourth District. 4-17-0632
Petition for Leave to Appeal Denied.

126009

Paul J. Ciolino, respondent, v. Alstory Simon et al. (James G. Sotos,
petitioner). Leave to appeal, Appellate Court, First District. 1-19-0181
Petition for Leave to Appeal Denied.
Anne M. Burke, C.J. took no part.
Michael J. Burke, J. took no part.

126015

Paul J. Ciolino, respondent, v. Alstory Simon, petitioner. Leave to
appeal, Appellate Court, First District. 1-19-0181
Petition for Leave to Appeal Denied.
Anne M. Burke, C.J. took no part.
Michael J. Burke, J. took no part.

126025

Paul J. Ciolino, respondent, v. Alstory Simon et al. (Andrew Hale et al.
petitioners). Leave to appeal, Appellate Court, First District. 1-19-0181
Petition for Leave to Appeal Denied.
Anne M. Burke, C.J. took no part.
Michael J. Burke, J. took no part.

127100

Juanita Flores, respondent, v. Westmont Engineering Company, etc., et
al. (WF Illinois LLC, petitioner). Leave to appeal, Appellate Court, First
District. 1-19-0379
Petition for Leave to Appeal Denied.

127101

People State of Illinois, respondent, v. Cornelius L. Jones, petitioner.
Leave to appeal, Appellate Court, Fourth District. 4-19-0166
Petition for Leave to Appeal Denied.

127103

People State of Illinois, respondent, v. Flamond Williams, petitioner.
Leave to appeal, Appellate Court, First District. 1-18-2166
Petition for Leave to Appeal Denied.

127107

In re Estate of Virgil Jacob, Deceased (David H. Jacob et al.,
petitioners, v. Carole S. Bieniek, etc., respondent). Leave to appeal,
Appellate Court, Second District. 2-19-0464
Petition for Leave to Appeal Denied.

127110

People State of Illinois, respondent, v. David A. Waszak, petitioner.
Leave to appeal, Appellate Court, Second District. 2-18-0671
Petition for Leave to Appeal Denied.

127111

People State of Illinois, respondent, v. Yolanduis Lynn McDuffie,
petitioner. Leave to appeal, Appellate Court, Third District. 3-18-0119
Petition for Leave to Appeal Denied.

127112

People State of Illinois, respondent, v. Reginald Benford, petitioner.
Leave to appeal, Appellate Court, First District. 1-18-1237
Petition for Leave to Appeal Denied.

127113

People State of Illinois, respondent, v. Miguel Martinez, petitioner.
Leave to appeal, Appellate Court, First District. 1-17-2097
Petition for Leave to Appeal Denied.

127114

People State of Illinois, respondent, v. Nicole A. Jackson, petitioner.
Leave to appeal, Appellate Court, Fourth District. 4-20-0154
Petition for Leave to Appeal Denied.

2021 IL App (1st) 172097
No. 1-17-2097
SECOND DIVISION
March 16, 2021
IN THE
APPELLATE COURT OF ILLINOIS
FIRST JUDICIAL DISTRICT
THE PEOPLE OF THE STATE OF ILLINOIS,
Plaintiff-Appellee,
v.
MIGUEL MARTINEZ,
Defendant-Appellant.

)
)
)
)

Appeal from the Circuit Court
of Cook County.

)

No. 12CR22749

)
)
)
)
)

The Honorable
Paula M. Daleo,
Judge Presiding.

JUSTICE PUCINSKI delivered the judgment of the court, with opinion.
Presiding Justice Fitzgerald Smith and Cobbs concurred in the judgment and opinion of
the court.
OPINION
11

Following a bench trial, defendant, Miguel Martinez, was convicted of predatory
criminal sexual assault and aggravated criminal sexual abuse and was sentenced to 50 years’
imprisonment. On appeal, defendant seeks reversal of his convictions and the sentence imposed
thereon, arguing that his trial was conducted in contravention of his constitutional right to be
present for all critical phases of his trial as well as in violation of his rights to confrontation and a
public trial. For the reasons explained herein, we affirm the judgment of the circuit court.

If 2

I. BACKGROUND

1-17-2097
Defendant was charged with multiple sex Offenses including predatofy"criminal sexual

113

assault and aggravated criminal sexual abusfe based on evidence that he engaged in inappropriate
sexual contact with his eight-year-old minor daughter, B.M.

114

'

‘Prior to trial, the State sought leave to permit B.M. to testify via a closed-cifcuit television
at the upcoming trial. The State’s request was made pursuant to the recommendation of Illinois
Department of Child, and. Family Services (DCFS) personnel who believed that it would be
psychologically damaging to B;M. to require her to testify against her father in his presence. The
circuit court presided over a hearing on the matter and heard testimony from a clinical psychologist
treating B.M. .who opined that that if would be detrimental to B.M.’s mental health if she were
required to'bonfront her father in person and that testimony via dosed-cirbuif television would
provide B.M. with “some semblance of safety.” .Defense counsel, in turn, acknowledged that he
did net object to the State’s request to permit B.M. to testify yia closed-circuit television “as long
as [defendant’s] rights [we]re protected” during the upcoming-trial. Ultimately; after considering
the testimony of B.M. ’s psychologist and the positions of the parties, the court granted the State’s
motion. Im doing so, the court expressly found that allowing “closed circuit questioning of the
;

complaining witness” would protect defendant’s rights. Thereafter, defendant waived his right to
a jury trial, electing- instead to proceed by way of a bench trial.

115

Prior to opening statements, the assistant state’s attorney (ASA) prosecuting the case
informed the court, defendant, and defense counsel howthe closed-circuit television system had
been set up in anticipation of B.M.’s testimony. The ASA explained that television screen had
been set up in a nearby room where defendant could sit and hear his daughters testimony while
•*

'

' f

,

.

,

shedestified.in the courtroom. The room was also equipped, with an “intercom.phone” that would
allow defendant the opportunity to communicate in real time with his, attorney,'When asked if the

-2-

1-17-2097
set up was “satisfactory,” defense counsel responded “yes.” Defendant also acknowledged that he
understood the procedure. The court then suggested that defendant relocate to the other room
during oral arguments to ensure that the system was in proper working order prior to B.M.’s
testimony. After opening arguments concluded, defense counsel went to speak to defendant, who
reported that he had been unable to hear the opening statements. The sheriffs deputy who
remained in the room with defendant during opening statements confirmed that the statements had
been inaudible. The ASA increased the volume of the microphone, and defense counsel indicated
that would he stand closer to the microphone when, he cross-examined B.M. Thereafter, the
sheriffs deputy indicated that he could hear defense counsel “just fine.” Accordingly, the State
requested the court to clear the courtroom of all nonessential court personnel, and B,.M. was then
called.upon to testify.. .

H6

B.M., who was 13 years old and in the care ofia, foster .family at the time of trial, detailed
the sexual abuse she suffered at the,hands of defendant from January 2011 to November 2012.
When the abuse started, B.M. was.eight years old, and she was living in.an apartment with her two
sisters, three brothers, defendant, and her mother.. At the apartment, .her, three brothers shared a
room and her mother slept in another room with B.M.’s two sisters. B.M., in turn, shared a room
with defendant. She explained that her father would sleep on the bed while she slept on a cushion
on the floor. There were certain times, however,, that defendant,“call[ed]” her to the bed.

V

B.M. testified that defendant first abused her when her mom was shopping with B.M.’s
three brothers,and one of her sisters. B.M. and her youngest sister, who was a baby at the time,
were left behind with defendant. B.M.: explained that she had been unable to accompany her mother
shopping because, she,had not been able ,to find her shoes. While her mother and siblings were out
shopping, defendant called B.M. to the bed and showed her an “inappropriate” video. The adults

•3-

1-17-2097
in the video were naked and “doing things” to each other. Defendant taught her that her “private
area” was called a “pussy” and referred to her chest area as “boobs.” He also taught her that his
penis was called a “dick.” • -

H8

13.M testified that on the occasions in which she was tailed to tliehed with defendant, he
touched her “pussy” with his “dick.” Neither of them would be- wearing‘undefwearrbefendant’
also attempted to put his “dick” in'her “pussy,” which B.M. found to be “uncomfortable.” She also
found it “uncomfortable” when defendant tried to put his finger' ih her “pussy.”'B'M.testified that
defendant made her touch his “dick” with her mouth and ordered her to' “suck it.”'Defendant also
touched her boobs with his hands and his mouth. He instructed her “not to tell Anybody” about
their interactions- B.M. explained that she followed defendant’s‘instructions because h& was’ her
father. The abuse stopped when she was examined by a doctor and removed front the care of her
parents^

119

-

• • i,

’ ; On cross-examination, B;M. testified thaf: although she knew defehdaht'firsfab'used her
when she was’eight years old; she did not remember specific details about the time of the year or
day of the week that the first’incidence of abuse occurred. She testified that defendant used his
“flip phone” to show her the inappropriate video. After that, he tried to put his ‘‘dick” and his"finger
in her “pussy”'but was unsuccessful. B.M. also admitted she’did not recall how much time passed
before defendant abused her again. She did recall that the second time occurred' after defendant
showed her another inappropriate video on the television that was in the family room; Nobody else
was home, and. she did not tell her mother, siblings, of teacher what had oceurfed;. Sfie did not .
recall how many times defendant touched her inappropriately-but testified'that the abuse occurred
on more than thbse two occasions.' B.M.' further;testified that'she:Was1 unaware'that there were
■1

-4-

.wv

•

1-17-2097
problems in her parents’ marriage, and she did not know why she slept in defendant’s room while
her mother slept in another room .with her sisters,,
• ■ j

110

Dolly Martinez (Martinez), B.M.’s biological mother and defendant’s ex-wife, admitted
that ,she pled guilty to permitting the sexual abuse, of a minor .in connection with the events that
occurred between. B.M. and -defendant. .She also-acknowledged , that none of her six biological
children were currently in her. custody and care.,vBack in 2012, however, she was residing in a
Cicero apartment with.hersix children and defendant. Martinez.confirmed that she and defendant
had slept .in different-room^ in-the, apartment, She.slept in-a room with ;two.of her, daughters and
her youngest. gpu^Althp,ugh she invited B.M. tasleepiwith.-her,wB.M.-told,.her,that- she would
‘rather’’ sleep, with, defendant in.his room; rMartinez testified that she ^,ftrst became ayyare of B.M.’s
abuse,on November 4, 20)2, wben^h^^ved.bppie.-to.Ae^partinehband opened defendant’s
bedroom door. When she did so, she observed defendant on the bed with B.M. Defendant was
lying, on top ofiBM. Neither of them was wearing clothes. Martinez became mad and scared when
she saw defendant having, sex with .their daughter. Martinez testified that she attempted to speak
to defendant}and B.M. later.that day about wh,at she,had observed; however, defendant “just
ignored” her and.B.M. “would notopen,up;tp”^er. .She,did nptlet B,M- sleep in defendant’s room
after that day. lyjattinez acknowledged, however,.that she did not immediately contact police about
what she had seen^nd that she had.not taken her daughter, to th$ hospital to be examined. Instead,•
shetook B.M. to her mother’s house. . T

111

• \ Although Martinez admitted that she spoke to detectives and an* ASA-about the November
4, 2012, incident, and provided them with a signed ;statement on November, 11; 2012,-she did not
remember )elhng;them:that shehad prior .knowledge-of defendant’s inappropriate,sexual behavior
with their daughter before she observed them in bed together. Specifically, Martinez did not recall

-5-

1-17-2097
telling the authorities that she had a conversation with B.M. “about'a month” earlier during which
B.M. reported that she did not want to be around defendant because he was “hurting” her and“alw

ing” to put his “dick” and finger in heri Martinez acknowledged that defendant owned

a “flip phone’l that had been provided to him through a government' prbgfam but testified that if
was not capable of playing videoS. He also owned another cellular phone, but she did'not know if
it could play videos. Martinez did recall observing images of defendant and B.M. on one of his
phonesbutidenied she observed Anything sexually explicit. She admitted,'however, that defendant
deleted the pictures on his phone after she told him that she had looked at them. When asked to
describe the pictures she did observe on defendant’s ■ phone', Martinez' testified -that''she saw a
picture of B:M. with her “eyes up in the air”; however, she denied that she told detectives that she
observed a picture ofB.M. with defendant’s penis in her mouth.^
If 12

• l.

, .. -I • ; •••." •••

Ori cross-examination, Martinez testified that she only observed one mstance'of sexual
contact between defendant'and B.M. and that her daughter had not' told her about any other
incidents.'

H13

' Jennifer Dobinson, a registered nurse employed by MacNeaf Hospital,' testified that she
was working in the emergency room on November 10, 2012, when she encountered BM., who
was brought to the hospital by her mother and' grandmother at the request-'of DCFS at
approximately 12:24 p.m. DobinsOn and Dr. Diana Goodwine interviewed B.M1. in a “private
location” in the * hospital’s emergency department: Basedon the information that fhM: relayed
during-the interview, Dobinson and Dr. Goodwine escorted B.M. to a private patient'room and
administered a sexual assault kit, which involved a full body examination and; DNA collection.
After Conducting U full body examination and observing no visible signs-Of physical injury,
Dobinson collected B.M.’s underwear, placed It into a bag, which she then sealed: Dobinson then

-6-

1-17-2097
took an oral swab and .a blood sample from B.M. Because B.M. was eight years old and a
preadolescent, the doctor did not perform a speculum examination of her.vaginal area; instead, in
accordance with protocol, Dr. Goodwine performecla “blind sweep” of B..M. ’s vaginal area.with
a sterile-Q-tip, Dobinson^ testified, that all-of the evidence, that was collected during B.M.’s
examination was put into separate bags, which .were ,then individually, sealed and put into, the rape
kit. The rape kit.was qlso then,sealed and.was subsequently, turned over4o Cicero police officer
Edgar.yera. B.M.’s .family did not .consent to any pictures being taken of her. for evidentiary.
purposes.,- : '* •
f 14

.-.t

• -. - When asked additional detailSiabout her.-encouhterwithB.M., .Dobihson testified that when
she presented at,the emergency room, .B.M~“dkhriot appear .to be female.” She explained that
B.M.’s “hair was short, almost like; in .a-boy.haircut.. She was.not in female-looking clothing. She
almost looked.Uke she was. a boy.”.Inuring theipteryiey/, B.M., relayed .that she had taken a,bath
and had urinated and defecated ibefore, arriving at thejemergency room. Six days had passed from
the date of B.M.’s last sexual assault to the time that she was brought to the emergency room'--. ;j

If 15'

:

Dr,,Goodwine confirmed that she and. nurse Dpbinson interviewed and-examined B.M. on

NovemberTQ,-20.12,,atMacNeal Hospital.-B.lYL relayed that she had,been penetrated vaginaily on
Sunday and that her father, had tried to^rapeher, but he was unsuccessful. B.M. further relayed that
the abuse had been occurring since 2011 and that she had been “too ashamed” to tell anybody..
B.M. stated that defendantplaced his finger-inside heiy“.kissed her down there” and.put his.penis
in her on “multiple occasions.” In addition, , defendant-also made B-.M. kiss his private part and;-his
mouth. During the interview,B.M. denied that defendant engaged in similar; conduct with any of
her siblings*..Quring j-the physical,-examination,;.that followed, Dr..Goodwine observed an
abnormality in BLtyL’s genitourinary area. Specifically, she observed a small-red .bump on B;M.’s

1-17-2097
internal labia, which is not something she normally observed in an eight-year-old child. In addition,
B.M.’s hymen was partially torriand there was a superficial tear and abrasions around her vaginal
opening. Although such findings1 were consistent with the activities described by B.M. during her
interview, Dr. Gbodwine acknowledged that other activities 'couldcause; those abnormalities,
including a biking accident or a fall from a horse. /
116

On cross-examinatibn, Dr. Goodwine acknowledged that it wds not entirely abnormal for
an eight-year-old girl to have a fear in her hymen. ’She further acknowledge# that the Small red
bump, like the orie that she observed-oh B.M.-s labia, was nofnecessary causedhy sexual trauma.
’ Officer Robert DeCianni, a'detective WitE the Cicero Police Department, testified that he

117

and his partner, Detective ;Juan Soto were' assigned to collect a biological sample* from’ defendant
on November‘‘12, 2012; After obtaining'defendant’s' written ConSent’authorizing the Collection,
Detective DeCianniused two swabs to collect DNA from the :side’ahd back of defendant’s mouth,
placed the swabs into1 bags, and sealed theih. Detective DeCiarini then sent the’swabs to theillinois
State Police crime lab;tO be tested.' :
118

’

fJO VvT >f
' Detective DeCianni’s partner, Soto, confirmed that they'were assigned to investigate

B.M.’s sexual assault and interviewed defendant during the course of their investigation on
November 12, 2012, at the Cicero'Police Department. Detective DeCianni1 advised defendant of
his Miranda rights (see Miranda v. Arizona, 384 U.S; 43# (1966)) and obtained a signed and
initialed form from defendant waiving those rights. Thereafter, the officer^ asked defendant d
series of questions.'Defendant’s responses'to those questions were reduced to a typewritten
statement, which defendant then signed. v0TTtf
119

/s0 *f*'‘ : ° :

In his statement, defendant admitted that he “rubbed [Et.M.’s] vagina with his hands on
three occasions” and that she was not wearing any underwear when he did so. Defendant further

1-17-2097
admitted that he “ma[d]e [B.M.] kiss his penis on two.or three occasions.” Defendant also admitted
that he used his phone to take two pictures of B .M. kissing his penis. Defendant, however, denied
that he ever had.sexual.intercourse with B.M. He also denied that he ev,er kissed JB .Jtf ’ s.vagina or
her nipples. His sexual encounters with his daughter occurred between October 22; 2012, and
October 31, 2012. Although defendant did not know why he engaged in sexual contact with B.M.,
he classified hims.elf as?a “very homy gay” andadmitted that he “made a huge mistake.” Defendant
denied that he engaged in inappropriate sexual contact with any. of his other children.
f 20

, On cross-examination,.Defective. Soto admitted that defendant’s interview \yas not video
"

...................

'

..........................................................................."

^

recorded, t^e. also admitted that no. .inappropriate picturesofB.M. were recovered .from defendant's^
phone but explained.that defendant admitted tl^at pe had deleted the images.

a.

V’

TT

..

If 21

,.TJom.Plach testified that,,in 2012, .he was,a licensed; clinical social-worker-employed by,

(jp

Presence Behavioral Health at the Proviso -Children’s Advocacy Center. pn-November 11 * 2012;
he conducted a;forensic victim sensitive! mterview^(VSlywith B.M., which he described, as -an
“information gathering” mechanism employed during a sexual assault investigation.. The VS;I took
place in a room outfitted with electronic recording equipment and a. one-way mirror.'Before
engaging in substantive conversation Plach ensured that; B.M. knew the difference between the
truth and a lie and explained that it was okay if,she. did not know the answer to any of his questions.
During his interview with B.M,, which was recorded, . Plach. used diagrams that, depicted
anatomically correct “boy” and “girl” figures. B.M.drew circles on pertain parts of the diagrams
during the interview when describing her interactions with defendant. After Plach confirmed that
the recording of his interview with B.M. accurately depicted his conversation with her, the .court
stated that it would watch the video in chambers. r
i.

*

1-17-2097
122

ASA Sarah Karr testified that she was assigned to observe Plach’s forensic interview with

£D

B.M. on November 11, 2012. After doing so, she relocated to the Cicero Police Department, where

\

the statement. In the statement, Martinez'admitted she discovered three ■ sexually explicit

£

photographs of B.M.’on defendant’s phone. In the pictures; defendant’s penis was in B.M. ’s mouth

she took a wntten statement from Martinez; B.M.’smother. Detective Sotc was also present for

and B.M. appeared to be “upset” in the photographs.'When Martinez confronted defendant about

^ O
2^
i

\
Wi ,

the pictures and asked him “why he: was doi&g that 'with his daughter,” he took the phone mid
deleted the pictures.^Karr testified that she returned to the Cicero Police Department the following
day and interviewed defendant. Detective Soto was also present for that interview as well. After
he was advised of and waived his Miranda rights, defendant provided a statement in which he
admitted to engaging in sexual-contact with B:M. Specifically, he admitted that-on more than one
occasion, he removed B.M.’s pajama bottoms anditouched her1 vagina with his hands - however, he
denied that he inserted his fingers into her vagina. Defendant also'admitted that he had B.M. kiss
his penis.on two-occasions. On both occasions, B.M..kissed his penis witfra closed mouth.
Defendant further admitted that he used his phone to take- two-pictures of B.MJkissing his penis.
He claimed.he did so because B.M. was “curious.” He: then showed the pictures to B.M. She was
the only person to whom he showed the photographs..Defendant did not know when Martinez saw
the pictures. He denied that his wife observed .him . and B-.M. naked and in bed together onNovember 4, 2012..Defendant .described himself as a ‘-very homy guy”.and stated that Martinez
had; stopped engaging in sexual intercourse with him two years.ago-. Defendant’s statement was1
reduced to writing, and he signed the statement, thereby acknowledging that the details included
therein were accurate. Karr acknowledged that.she, did not use'audio or video equipment to record
her interview with defendant. .

•» ;

V-

1-17-2097
123

Kenan Hasanbegovic, a forensic scientist with the Illinois State Police crime lab and an
expert in the. field of forensic, biplogical analysis, testified that he conducted testing on the evidence
included in B.M.’s.rape kit, which he received in a sealed condition. Hefirst conducted testing on
B.M.’s underwear, wWch.contained, several bodily fluid stains. One.of those- stains tested positive
for the presence, of semen and was preserved for DNA analysis. Hasanbegovic acknowledged he
did not know when jorfio^y. the sperm cells appeared on the^upderwear that he examined.

124

. . • ; Megan Neffi a forensic .scientist-with the Iliainois-State Police and .an expert in the. field of
forensic DNA analysis, testified ..that she performed;testing:on the samples collected in connection
with the case; She/first generated DNA profiles, from the .preserved buccal swab; standards that
were_colleeted from defendant-and B.M. She theft- conducted testing on,the .semen stain that was
present on B.M;,’s/underwear. Neff .testified that the underwear, contained a DNA mixture .-from
two people, one-of whom was male. fhe. male.DNA profile that she-'discovered-2‘rAatch[ed] ”
defendant’s DNA profile; :She explained that ,the male profile that she identified.would be expected
to occur in approximately ! in-97 quintillioh African. Americans,:! in 2.6-quintillion whites, and. lin 6.2 quintillion.Hispanic unrelated-individuals^ *. ,

125

.

^ After presenting the aforementioned evidence, the State rested-its’case.'-Defendant’s-motion
for a directed finding'wa^ denied, and defendant elected to testify. When asked by his attorney if
he ever touched’B.M,-“inappropri&tely;-''defendant testified, “Not really. I never did.” He then
specifically denied that he ever touched his daughter’s vagina-or chest. He also denied that^he ever
had his daughter touchhispenis: Although he acknowledged that he owned acell phone; defendant
testified-that the phone did ndt have Internet’ access and that he never had pornography1 or
inappropriate pictures of B.M: omhis phone. He^alsd denied that he Over showed his'daughter
pornography. Defendant admitted that he and Martinez had relationship “problems” in 2011 and

1-17-2097
2012 and that he knew she wanted to leave him. Defendant also admitted that he signed a statement
at the Cicero Police Department; however, he testified that he only did so because the officers told
him he could leave Once he signed the document. He classified the officers’ actions as
and testified that he' “never” told the officers that he ever touched his daughter in ail inappropriate
sexual manner. Defendant denied that he was ever provided with his Miranda right's and testified
that he never read the statement that he signed. Defendant also1 testified that the Underwear with
the semen stain that the State introduced into-evidence belonged to'Martinez, riot his daughter.

If 26

■ Following defendarit’s testimony, the defense rested. The parties then delivered closing
arguments. After considering the evidence and the arguments of'the parties' the court found
defendant'guilty of multiple Counts of predatory criminal sexual assault, criminal sexual assault,
and aggravated criminal sexual abuse. In doing so, the court found that B;M"*Hvas :a much1 more
credible Witness than her father.’-Mofeover-'the court noted "that B.M.’s testimony at- trial and
during her VSI was corroborated bythe physical evidence detailed by Dr. Goodwine as well as by'
defendant’s own statement. In'contrast, found defendant’s testimony “totally incredible” and noted
that his claim that that the underwear that was introduced at trial belonged to Martinez Was refuted
by;the DNA evidence. Moreover, the fact that defendant’s semen was found :on'that underwear
that he claimed belonged to Martinez was inconsistent with his testimony that they had not-had
intercourse in two years.

1127

Defendant’s posttrial motion was denied, and the cause proceeded to a sentencing hearing,
where the court; after considering the evidence presented in aggravation and mitigation, sentenced1
defendant to a total of 50' years’ ’imprisonment. This appeal 'followed.

128

II. ANALYSIS

If 29

A. Defendant’s Absence During Opening Statements

1-17-2097
130

On appeal, defendant argues that his trial was conducted in contrayention of a number of
his constitutional rights. He_first arguesthat he was denied his constitutional right to be present^
for all critical stages of his trial when, he .was absent from the courtroom during opening .
statements. Although he was taken to,another room to.listen to and .observe the statements, the/
audio equippient was. not calibrated properly, and he was unable to hear those statements^

131

. The Stqte, in turn, responds t}jat defendant waived his right,to-, be present when he agreed
to view the opening statements yiaclQsed-circuit .television arid, a§< such,, may not avail himself
of the plainjrror_doctrine.; Alternatively,, the State observes, t^at,defendant failed tp raise this
issue jn aposttnal motion apdsubmits that he is not. entitled, to relief under the pjainerror^, .
doctrine becausej^hi&physicalabsence, in the courtroom did notresultin an,unfair trial or a
violation of an undcrlyinggubstantjal right”

132

.
' ti.

As a threshold matter, defendant,acknowledges that he. foiled, to properly preserve his. • >1 •'
claims that his. trial was, conducted in contravention of his constitutional, rights; Specifically, he
foiled to object; tcyeachof thepurpcrted constitutional violations atfrial and-foiled to include,. ^
them, in a ppsttjial.motion., See People v. Enoch, ,122 .111, 2d 176, ,186 (1988) (recognizing that to ,
properly preserve,an.issue.for appeal* a defendant must objecfto the purported error at trial and
specify the .error, in a posttrial motion and that his failure to satisfy both requirements -results in
forfeiture of appellate review of his claim). In an effort to avoid forfeiture, however, defendant <
invokes the plain error doctrine, which provides a limited exception to the forfeiture rule and
allows for review of forfeited issues on appeal if-the evidence is closely balanced or the error is
of such a serious magnitude that it affected, the integrity of the judicialprocess and deprived the .

^

defendant of his right to a fair trial. Ill. S. Ct. R. 615(a) (eff. Jan. 1, 1967); People v. Belknap,

^

1-17-2097
2014 IL 117094, f 48; People v. Sargent, 239 III. 2d 166, 189 (2010); People v^Pj0kow.ski,225
III. 2d 551,564-65
If 33

‘

“

•

The plain error doctrine, however’ only applies to claims that are forfeited, hot waived.
People v. Schoonover, 20i9 IL App (4th) 160882, f 15! Although sometimes mistakenly'Used
interchangeably, the doctrines of waiver and forfeiture are distinct. People v. Sophanavong, '2020 y
IL 124337, f 20. Waiver differs from forfeiture in that waiver “ ‘is an intentional relinquishment
or abandonment of a known right or privilege’ ” whereas forfeiture is the;“ ‘failure to make the
timely assertion of [a] right

5 55

or privilege. Id. (quoting People v. Lesley.2018 IL 122100!

37). When constitutional rights are implicated; waivers “ ‘not only must be Vohmtafy but must be
knowing, intelligent acts done with sufficient'awarerie'Ss' 6f'the relevanthircUmstahces and likely
consequences.

5. 55

People s. Johnson, 75T11. 2d 180, 187 ( 1979)' (quoting Brddyy. United States

397 U.S: 742,- 748 {1970))\tMike waiver, “[forfeiture results in the loss of a right regardless of
the defendant’s knowledge thereof and irrespective of whether tlW defendant ihteiided to
relinqtfish'the TightsLesley, 2018' IL 122100, ^f 37. T~“
134

In this case, prior to trial, the court held that'B.M. would be permitted to testify via
closed-circuit television. In accordance with the court’s prior ruling, a televisionwas sef up in a
room close to the courtroom where defendant could observe his daughter’s testiiribny. The room
was also'equipped with an intercom phone that defendant could use to’bommunicate with his
attorney during his daughter’s testimony. The setup was Explained to defendant arid defense'
counsel immediately before the trial began. When the court inquired whether ttie:seriip was

;-r

“satisfactory,” defense counsel responded, “yes:”fhe court'then addressed defendant to assess
whether'he Understood the process by which he would be viewing his daughter: s testimony, and
he responded, “yes.” Thereafter, to'ensUrb that the equipment was 'in'proper Working order, the

-14-

1-17-2097
trial .court suggested that defendant observe opening statements from that room. Neither
defendant nor his attorney voiced any objection to the court’s suggestion, and.defendant left the.
courtroom to listen to and observe opening statements via the closed-circuit television system.
After opening statements concluded, the court.and the attorneys were informed that,defendant .
had been unable to hear the statements. The lack of audio was also corroborated by the sheriffs
deputy Who was monitoring defendant^ccorjiQgly, the, parties examined the audio equipment
and adjusted the microphone, settings, and defense, counsel indicated he would stand closer to the
microphone when he spoke in the courtroom.
f 35

, . Based on:.these facts,we do not find that .defendant waived his claim pertaining to.his
absence during opening statements. Although defendant apparently willingly exited .the

.... „

courtroom to listen to, and view, .opening, statements, he was neyerspecificaUy^advise.d of his .
constitutional righttp be present.. Moreover, there is.no dispute that he-w-as-tmablefo hear those
statements due to problems with the audio portion of the closed-circuit teleyision,system..His
apparent willingness to absent himself from the courtroom during oral arguments was-basetf, •
upon an implied understanding that he would actually be able to see.and hear those arguments.
That^however,jidr^Qt occur. Mindful that the principles of \yaiver should be liberally construed
in favor of a defendant {People v. Phipps, 238 Ill. 2d 54, 62 (2010)), we do not find that the
record supports a finding.that defendant knowingly and voluntarily waived his right to be

;

physically present for opening statements, See, e.g.,People v..Stroud,.208 Ill. 2d 398, 403, 409.
(2004) (declining to find that the defendant waived his right to(,be present for plea proceedings »•
where he was not specifically informed, of.his right to be present, and thus “did not specifically
waive his right to.be bodily in the courtroom’’). Accordingly, we will review his claim for plain,.
error, The first step in .jmy plain error analysis is to determine whether any error actually

.

.

1-17-2097
occurred. Piatkowski, 225111. 2d at 565; People v. Rinehart, 2012 I'L 111719, f 15."If an error is
discovered, defendant then bears the burden of persuasion to show that the error prejudiced him.
Sargent-, 239 Ill. 2d at 189-90.-Keeping this standard in mind, we tum:now to evaluate the'merit
of defendant’s claim.
136

The federal and Illinois state constitutions both “afford criminal defendants the general
right to be present, not only at trial, blit at all critical stages of the proceedings, from-arraignment

/a

to 'sentencing.”-People y. Lindsey,"201 Ill-. 2d 45, 55 (2002). A defendant’s right to be present,
however, is not considered to be'a-’substantial constitutional right; rather, it isa “ ‘lesser right’
that is intended to secure the substantial rights !of a defendant, such as the righf fo confront

'

witnesses; the right to present a defense, or the right to an impartial \ntyP People v. 'Jo'ftnsdn,^23S

//

Ill., 2d 478, 487 (2010). In addition to being a lesser right, a defendant’ s right to 'be present is not
absolutQ. Lindsey, 201:111, 2d at 56; People‘V. Lucas, 2019 IL App (1st)1160501, ^fT2.'“ ‘[The]

<2

privilege of presence is hot guaranteed “when presence would be useless; or the benefit but a
shadow*” ’ ”;:however,“ ‘due-process'clearly requires that a 'defendant be’allowed to be present
“to the extent a fair and just hearing would be thwarted by his absence

J 5>

Lindsey, 201 Ill. 2d at j ^

56-57 (quotingKentucky v. Stincer, 482 U.S. 730, 745 (1987)). Moreover, a defendant can waive
------------------- :--------- —---------------,

his right to be present by consenting to be'absent for a portion of a’proceeding or through his
own misconduct. Id. at 56. Accordingly; “even where a defendant has the geherarright to be
present because the proceeding is a‘criticar stage, a defendant's absence' is ribta per :se ■'
constitutional violation;” Id. at 57. Instead, the defendant’s right to be present Will be found to be
violated aonly if the record demonstrates that defendant’s absence caused the proceeding to be :
unfair or if his absence resulted in a denial of an underlying substantial right;”
/Cj

see also

People v. Hood, 2016‘IL 118581, ^ 31 (categorizing the right to be-pfesent as a:“.Tesser right,’

1-17-2097
meaning that the right is violated only when the defendant’s absence results in the loss of an •
underlying substantial right or in an unfair proceeding”). Whether a defendant’s absence affected
the fairness of his trial-depends on a review of the record as. a whole and depends upon the
specific nature of the proceeding from which he was absent. Lucas^ 2019 IL App (l st) l;60501^: j

137

In;.this;case, although we do not condone the.procedure by which the court and the parties
tested the closed-circuit television system,;jwhich resulted' in defendant being unable to. hear the
parties’ opening-statements, we do not find :that defendant? s absence ;ffomf the courtroom during;-;opening statements andihis .inability to hear ithpsestatements resulted in an.unfaintriai or the.
denial.of anvunderlying substantial..ripht. While; defendant suggeststhat his inability:to;hear the'
State “announce .its chosen theory ofthe. case” during opening statements resulted in him being
“deprived of.necessa.ry information to allow him,to intelligently, exercise;his right to testify, -onto,
refrain from testifyingjron :his own behalf,” \ye cannot agree. It is true that a defendant should be
made aware of “a/fof;the State’s-eyjdenps” when exercising his right to decide whether or not to .
testify on his;own,bebalf. (Emphasis-in original) Id. 119. Opening-statements;,however,.are-not

y

evidence (PeQgfey. Jaimes, 201$ IL App, (2d) 121368, ^56)^\rather, opening statements serve to.
outline the expected evidence and the reasonable inferences that may be drawn, from that

j ^

evidence {Peopley, Arroyo, 339 Ill. App. 3d l 37,. 149„(2003)). Here, there is no dispute that
defendant heard allof the State’s evidence against him prior to exercising his right-to testify.
That is, defendant made his decision to testify.after hearing testimony from his daughter, his ex-,
wife, medical personnel,! fprensio.scientists,: and police detectiv.es.. As such, his absence from.the
courtroom during opening statements and his inahility.to hear those statements.did not prevent’
him from majcing a fully informed .decision as to whether or not to testify. Because defendant’s '

-1

1-17-2097
absence from the courtroom during opening statements did not result in an unfair trial or result in
the denial of an underlying substantial right, we find no constitutional violation. See, e.g.,
[ (P ^Y^Undsey, 201 Ill. 2d at 60 (Finding the defendant’s absence duringhis arraignment and'jury
waiver did not amount to a constitutional violation where it did not cause the proceedings’to be
unfair or result in a denial of an underlying constitutional right). Having found no error','there can
beno plain error. Hood, 2016IL 118581, H 18.
H38

139

■■

' B. Defendant’s 'Absence from the' Courtroom During B.M. ’s' Testimony
‘ In a related claim, defendant next challenges the procedure by which the court permitted

B.M; to testify. Although he acknowledges that section 106B-5 of the Code of Criminal
2)

'ip

Procedure Of 1963 (Code) (725 ILCS 5/ip6B-5 (West 2012)) provides a mechanism by which
minor'victims of sbxual assault may testify via closed-circuit television, he argues that the circuit
couftcfailed to follow the procedure outlined in 'the statute. Defendant submits that the court’s
faiiure to 'abide by the statute resulted in the denial of his right to bepresent at ev'efy critical
stage of his trial, “which in turn infringed on his Underlying substantial rights to confrontation
and the assistance of counsel.” *

t40

The State again argues that defendant waived his claim because he acquiesced to the
manner in which B.M. was permitted to testify, which resulted in his exclusion from the
courtroom. On the merits, the State contends that defendant’s “viewing of B.M.’s testimony via
closed-circuit television did not violate his right to be present, nor infringe on his underlying
substantial rights to confrontation and the assistance of counsel.”

H41

>;

; \.

Having already discussed the relevant law concerning a criminal defendant’s right to be
present for all critical stages of his trial, we will now set forth the relevant law concerning a
defendant’s right to confrontation, which is provided for in both the federal and Illinois state
-18-

1-17-2097
7X institutions. U.S. Const., amend. VI; III Const. 1970, art..I, § 8 (amended 1994). “The central
concern of the .confrontation clause is to ensure the reliability of the evidence against a criminal
defendant by subjecting it to rigorous testing, in the context of an adversary proceeding before the

z trier of fact.” ifeop/g v. Lofton, 194 Ill. 2d 40,. 56 (2000). The: constitutional right to confrontation
includes .the right, tohear apd view, a witness as;he or she testifies and to aid in counsel’s crossexamination of that witness. Id. at 60; see also Hood, 2016JLJ..1-858-1^119.(“The confrontation
clause ‘provides .two types of prptections for a. criminal defendant: the right physically to face
those who testify against him, and the right to conduct cross-examination’ ” (quoting Pennsylvania
v. Ritchie, 480 U.S,. 39, 51 (1987) (opinion of Powell, J., joined by .Rehnquist, C.J., and White and
O’Connq^JX.))). Although the constitutional right to confrontation includes a preference for faceto-face confrontation, testimony delivered through electronic means does not necessarily result-in
a violation of.a.defendant’s cpnstitutional right., See Maryland v. Craig, 497. U.S. 836, 851-52

2/

(1990) (hQlding that the “use of the one-way closed circuit television procedure,,, where necessary
to further an important state interest, does not impinge upon.the truth-seeking °r symbolic purposes
of the Confrontation Clause”); see also People v. Cuadrado, 214 Ill. 2d 79, 89 (2005) (recognizing

2^ 7*

that “[wjhjhyhe-xojifrontation clause represents a preference for face-to-face confrontation, that

. „

preference ‘must occasionally give way to considerations of public policy and the necessities of
the case’ ” (internal quotation marks omitted)).
142

•:

ln Illinois, section 106B-5 of the Code, provides a mechanism through which minor victims
of sex crimes can testify electronically outside of the immediate physical presence of a criminal
defendant. Specifically, the statute provides as follows:
■1

.1

‘ i.

.! . :

' ►.:

t .

h

i

i

:

1-17-2097
“(a) In a proceeding in the prosecution of [certain enumerated sex offenses], a court may
order that the testimony of a'victim who is a child under the age of l8 years *** be taken
outside the courtroom and shown in the courtroom by means of a closed circuit television if:
(1) the testimony is taken during the proceeding; and
(2) the judge determines that testimony by the child victim *** in the courtroom will
result in the child *** suffering serious emotional distress ***.
; ;»:

t :

** *

(f) The defendant shall be allowed to communicate with the persons in the room where the
<•

■:

child *** is testifying by any appropriate electronic method.” 725 ILCS 5/106B-5 (West 2012).
\•

1f43

■r

Initially, we note that defendant does not contest the propriety of the court’s ruling allowing
:

- <.

;.

B.M. to testify via closed-circuit television to prevent her from experience adverse psychological
'i'

‘ i

effects if forced to confront him in person; rather, he simply challenges the manner in which B.M. ’s
i

closed-circuit television testimony took place. We agree with defendant that the specific procedure
; • *.

i

i.

outlined in section 106B-5 was not followed. As explained above, the statute permits a minor to
testify “outside the courtroom and” have his or her testimony “shown in the courtroom by means
of a closed[-]circuit television.” Id. § 106B-5(a). In this case, however, B.M. testified in the

31

i

courtroom and defendant was relocated to a nearby room to view her testimony via closed-circuit
television.
•;

If 44

Although the proceduraoutlined in section 106B-5 was not adhered to, the State jirgues
that defendant and defense counsel were aware of, and agreed to, the manner in which the closedcircuit television system was set up. Indeed, the record reveals that, prior to trial, the ASA
>

explained the setup and offered to have the court and defense counsel inspect it. The court then
s

asked defense counsel whether the setup was “satisfactory,” and defense counsel, responded, “Yes,

^

M 7-2097
your Honor.” The court next addressed defendant and asked whether he understood the procedure,
and defendant responded, “Sure.” The court went on to explain, “[F]or at least one witness, you
will'be in the back.. All other witnesses, \yeTl haye you out here. Okay?” Defendant,,in turn,
responded, “Sure.” He then left the courtroom to view B.M.’s testimony from the other room.
Based on these facts, the State argues that that defendant waived rather than forfeited his challenge
'

to the manner in which the closed-circuit television system was employed in this case. That is, by
failing to raise any objection and voluntarily leaving the courtroom will full knowledge of the

^ manner in which he would be observing B.M.’s testimony, the State argues that defendant
knowingly and voluntarily waived his right to be present in court for her testimony. We disagree.
Although the record clearly demonstrates that defendant was aware of the process through which
■■

'.’ll

■-

•

B.M. would be testifying and raised no objection, he was never specifically advised of his
constitutional right to be present. We reiterate that the principles of waiver should be liberally

3?

construed in favor of a defendant {Phipps, 238 Ill. 2d at 62) and conclude that the record does not
(

(

support a finding that defendant knowingly and voluntarily waived his right to be physically
«

present for B.M.’s testimony. See, e.g.,Peoplev. Salgado, 2012ILApp (2d) 100945,t17(finding
that the defendant did not waive his right to be physically present during the minor victim’s
testimony where “nothing in the record shows that defendant understood that he had a right to be
present).
145

Having found that defendant forfeited rather than waived his claim, we still nonetheless
conclude that he is not entitled to any relief under the plain error doctrine because he is unable to
show that his absence from the courtroom resulted in an unfair proceeding or caused him to be
denied an underlying substantial constitutional right. Although defendant argues that his absence
from the courtroom during B.M.’s testimony infringed on his constitutional right to confrontation

1-17-2097
and to assist in his own defense, courts have held that a defendant’s constitutional right to
confrontation is not violated when the defendant is permitted to cross-examine the child who is
testifying’via closed circuit television in accordance with the protections afforded by section 106B4
5 of the Code. See, e.g., Lofton, 194 Ill. 2d at 59-60 (recognizing that a statutory':scheme that
permits a child victim to testify via closed-circuit television does not violate a defendant’s right to
confrontation where the child testifies under oath and under the “ ‘watchful ’eyes of the parties and
the fact finder’ ”• arid is subject to 'cohtempo'raheoris Cross-examinatibn (quoting People v. Van
Brocklin. 293 Ill. Ann. 3d 15S. 169 ( !99"il): People v. Pope, 2020 II. App (4tHJ 180773,«' 38 .T,/}
(holding that “[a] defendant’s confrontation clause rights are hot violated when the "defendant is
allowed to cross-examine the witnesses'testifying pursuant to sedtibn 106B-5”).
1J46

';

Herej 'there is no dispute that B!M. testified under oath under the ’watchful eyes of the

parties arid the fect-fmder and whs subject to contemporaneous cross-exairiihatibn. Unlike the
problems that arose during opening statements; there is no evidence in the record that defendant
was unable to see or hear B.M.’^testimony. Although defendant suggests that there is no evidence
that the intercom phone that was available to him to converse with his attorney 'and assist in
counsel’s cross-examination of his daughter .was “even operable,” we emphasize that there is
nothing in the record to suggest that the intercom system was not. in proper working order. See
In re Linda B\r20ll XL 119392,

43 (noting that “on appeal,-.'the:party claiming error has the

burden- of showing .any irregularities! that, would justify reversal” and-that “[e]rror is never
presumed by a reviewing court; it must be affirmatively shown .by'the record”). Defendant,
however,, also suggests that the fact that there was a sheriffs deputy,in the room where he watched
B.M.’s testimony further impaired,.his ability fo communicate-with counsel.and assist in.his
defense. We note, however, that even if defendant.had been in the courtroom ;during B.M.’s

-22-

1-17-2097
testimony, other people would have also been located in close proximity to him if and when he
conferred with counsel, including the ASA prosecuting the case.and the sheriff s deputy in pharge
of securing the courtroom. In either instance, defendant would be required to speak quietly to avoid
being, overheard. Ultimately* based, on the record, ;there is no evidence that, defendant’s absence
from the courtroom significantly impaired,his right to communicate with counsel and assist in his
own defense or violated his constitutional confrontation rights., See, ,e.g., Lindsey, 201 Ill. 2d at 60
(recognizing that wjiilethe use .of a closechcircuitsystem affected thedefendaqt’s ability to confer
privately with counsel, the record did Hot support a finding that the defendant was denied adequate
representation,,due. to his absence from rtbe .courtropm)^ Indeed, there :.is no, evidence ,that
defendant’s absence front the courtroom. dunngBjM.’s testimony resulted in anunfair proceeding
or resulted in dip denial ,of an underlying substantial right. Accordingly, we find qo constitutional
violation. Se&.id, Absent a violation, there is no,plain error. Hood, 20.16 IL. 1,18581,.f 18.
147.
148

C. Exclusion of Other.Indiyiduals.from the-Courtroom During B.M.’s, Testimony •

-

Defendant next argues that he was denied his right to .a public trial when the courts
excluded members of the.public fromthe.courtroom during B.M.’s testimony pursuant to section
115-11 of the Code (725 ILCS 5 115-11 (West 20,12)).: ■„ % 'V-,

149

The State again responds that defendant waived review of his claim because he didfiot
object to the court’s decision to exclude certain-individuals from the"courtroom duriiig'B.M.’s
testimony.. On'the merits,-the State submdts that the partial closing of the courtroom did iiof
violate defendaht’s constitutibnal right to a publictrial.

150

.

• f.

-

As a threshold mattef, we nO^e'that there is no dispute that defendant failed to objecfto'
the exclusion ofseveraf ihdiViduals frdfn the courtroom during B.M.’s testiihcmy. 'We decline- 1 •
however, theState’s'InVitatiori to equate defendant’s failure to object- as an affirmative ■
-2,3-

•

it

1-17-2097

//-

acquiescence and waiver of his right to a public trial. See Sophanavong, 2020 IL 124337, f 20
(explaining that waiver “ ‘is an intentional relinquishment or abandonment of a known right or
privilege’ ”• Whereas forfeiture is the “ ‘failure to make the timely assertion of fa] right’ ” or
privilege (emphasis added) (quoting Lesley, 20l:SIL 122100,

36-37)). Accordingly,'we will

review his claim for plain error!
151
^

Criminal defendants are"afforded a constitutional right to a public trial. US. Const.,
amends. VI, XIV; ill. Const. 1970, art. I, §'8 (amended 1994). The right to a public trial
enc'ompasses the right to publicly present evidence and Witnesses. People v. Groebe, 2019 IL App
(1 st) 180503,137. This right, Which exposesthe legal "process,is designed primarily to protect the
accused'(/d. H 32), but it also serves to protect interests that idO not Belong solely to a defendant,
including the general public and the press {People v. Radford,'2020 IL 123975,"1 25).* For example,
the “[o]penness in court proceedings may improve the quality of testimony,1 induce unknown
witnesses to come forward with relevant testimony, cause all trial-participants fo'perform their
duties more conscientiously, and generally give the public an opportunity to observe the judicial
system.” Gannett Cor^DePasauale. 443 U.S; 368, 383fl9m

A/'/ ' ■ ."

152 [j y . - Section 115-Ll^oftiie Code1 allows for the “limited” exclusion of witnessed during the
testimony of a minor victim of certain.sex offenses {People V: Williams', 2016 IL App (3d) 130901,
1}19) and provides as follows:

L

“In a prosecution for [certain sex offenses, including predatory sexual assault of a child],
where the alleged victim of the offense is a minor under 18 years of age, the court may
• 1 exclude from'the proceedings while the victim is testifying, all'personsywho, in the opinion
of the court, do not have a direct interest in the case, except the media:” 725 ILCS 5/11511 (2012).

-24-

j/^

1-17-2097
H53

• The plain language of the statute places three conditions on a partial courtroom closure
during a minor victim’s testimony: (1) the trial court cannot exclude the media, (2) the trial court
may only exclude persons who do not have .a direct interest'in the case* and (3) the exclusion of
individuals without a direct interest in .the case cannot extend beyond the minor victim’s «...
testimony. Schoonover, 2019 IL App (4th) 160882, ^ 23. Persons with a direct interest in the
case include.a defendant’s immediate family. See People v, Falaster, 173 Ill. 2d 220, 228 (1996).
Courts have held that a defendant’s right to a public trial is not violated when the circuit court
adheres to the narrow exclusionary powers outlined in the statute.:#.; see also .Schoonover, 2019
IL App,(4th) 16Q882, % 43 (“an order by the trial court excluding spectators from the proceeding
is sufficient where i( satisfies; section 1.15-1.1 of the Code”); Williams,,.2Q16 IL App (3d) .130901,,
^20(“[A3nexcIusioiiary.praerunderscction.ll5-ll of-the Codejs yalidjf it nieets the.
requirements of the statute.’’). .

H54

Here^prior^Q.B.M.’s.testimony^ the fqllowing discussions w$re had. about .excluding ;

:

witnessesduringB.M/s testimony: .
“[ASA]: Judge, at this.time,.we.-wQuld ask for the-child’&testimony, thatthe
courtroom be. cleared of everyone, pon-essential court personnel;-except for her therapist,
the vjetim witness assistant fronythe State’s. Attorney’s;Qffice,, and'her,foster family, if
they choose to stay.
THE COURT: Who are those people. then,that you’re asking to stay in? Just that back
,

,

row (here?.
•..■[ASA]*,If the family chooses to stay, I guess just those four* individuals back there. Or
. actuallyjust.thethree. I don’t know that^-?.
THE COURT: Why is she—off the record for a moment.
-25-

: ;

1-17-2097
(Whereupon a discussion was had off the record.)
“THE COURT: I want you two ladies to sit outside. Do you want to call your first
witness?
[ASA]: Yes, Judge. Coming in right now.
THE COURT: [B.M.], come on up. For the record, I’ve asked the mom’s family to
leave but the other person can stay.”
!

t

155

t

Defendant argues that the ambiguity of the aforementioned exchange and the lack of
clarity as to the identities of the excluded persons and whether or not they had a direct interest in
:.

•r

V'

the case justifies a finding that his right to a public trial was violated. We disagree. Although we
. t

\

acknowledge the lack of clarity in the record as to exact identities of the excluded individuals, it
> )•:

is evident that the court engaged in a discussion off the record, after which it directed two of the
■

’ t

three individuals seated in the back row of the courtroom to “sit outside” during B.M.’s
' i •

*

testimony. Those two individuals were apparently members of “the mom’s family.” Because
:

B.M. was living with a foster family, the court could have either been referring to family
members of B.M.’s foster mother, or family members of B.M.’s biological mother. Either way, it
is clear that the individuals excluded were not members of defendant’s immediate family who
necessarily have a direct interest in the case.’See,'e.g.l'Falaster, 173 Ill. 2d at 225, 228
(recognizing that persons with a direct interest in the case include a defendant’s immediate
family arid concluding that the circuit court did not err in excluding “two nephews of the
defendant and the grandfather of one of the nephews” because they were “not members of the
defendant’s immediate family and thus did not have a direct interest in the outcome of the case”).
Indeed, defendant has not identified any person with a direct interest in the case who was
improperly excluded.
-26-

1-17-2097
156

We acknowledge that the court’s decision to exclude two of the three persons seated in
the back of the courtroom was made following an off. the record discussion and emphasize that
the better practice would undoubtably be for the trial court to make its findings on the record.
Nonetheless, because the trial court is presumed to know and follow the law absent evidence to

7

the contrary (In re Jonathon C.B., 2011 IL 107750,1 72), we necessarily presume that the court
properly ascertained whether or not the persons seated in the courtroom had a direct interest in
* i.

the case and excluded only those individuals who did not. Accordingly, because the record does
j.j

:t

*

not support a finding that the court violated
the requirements of section 115-11 of the Code, we
'.
5

\\i\ * r

reject defendant’s argument that he was denied his constitutional right to a public trial. See
f

Williams, 2016 IL App (3d) 130901, If 22 (rejecting the defendant’s argument that he was denied
the right to a public trial where the court conducted a discussion off the record prior to excluding
certain individuals during the minor victim’s testimony, reasoning: “Since trial judges are
presumed to follow the law [citation], we presume that the judge allowed all those identified with
a direct interest in the case to be present during [the minor-victim’s] testimony. While a better

»

practice would have been to make those findings on the record, we cannot say that the trial court
:

1

abused its discretion.”)
I

157

!

i

j •

a ' '

In so finding, we are unpersuaded by defendant’s reliance on Schoonover, 2019 IL App ^ f
(4th) 160882. In that case. Ihe Fourth District found that the trial court violated the defendant’s
right to a public trial when it sua sponte excluded individuals from the courtroom during the
minor-victim’s testimony without first determining whether they had a direct interest in the. case
and thus failed to comply , with the requirements of section 115-11 of the Code. Id. 126.^ £ X)
Although defense counsel “brought the presence of defendant’s ‘family members’ to the court’s
attention,” the record showed that the court directed them out of the courtroom “without making

-27-

1-17-2097
any inquiry into those individuals or their interest in the case.” 1d:^ 29. The Fourth District

(

concluded: “The court’s failure to make any inquiry indicates that it did not make an informed
decision as to whether the family members brought to its attention had a direct interest in the
proceedings prior tb‘excluding them. Such action amounted to a blanket exclusion ***'and'!
constituted a violation:of statutory requirements!” Id.
1158

Unlike the situation i:

£
mitively showed that the circuit

court failed to abide by the stringent requirements dlrsection 115-11 of the Code prior to

\

excluding individuals from the courtroom during the minor victim’s testimony, the record in this
case contains no such evidence. Therefore, we domot find that Schoonover compels a different
result. Accordingly, we reject defendant’s .claim that the circuit court deprived him of his right to
a public trial when it excluded certain.individuals from the courtroom during:B.M.’s testimony.
Absent.error,-there is no plain-tvcm.-Hood^ 20.16 IL 1-18581;,,^^8^
U 59
U 60

s

*. .. ’ D. Court’s Decision to View B.M.’s VSI-Video Outside of the Courtroom ;
Defendant next argues that the circuit court also violated his-right to be present and his
right to a public trial when it viewed the video of B.fyf.’s VSI outside of the courtroom and
outside of.the presence of him.and his attorney.

161

The State again.argues that'defendant waived appellate review ofhis claim because he
failed to object and through his conduct, “affirmatively acquiesced to the circuit court’s viewing
of the properly admitted VSI interview outside of the courtroom.” .On the merits, the, State
contends that “defendant’s rights to be present and to a public trial w.ere not implicated,- much
less violated where the court viewed B.M.’s properly admitted VSI video outside of the
courtroom.”

1-17-2097

If 62

LeCtf^'

The record shows that prior to trial, the parties litigated the admissibility of the recording
of B.M.’.s VSI. After a hearing on the merits, the circuit court found the recording admissible.
Thereafter, at,trial? licensed clinical social.worker Plach.testified that he cpnduoted a forensic
VSI with B.M. on November 1.1.,: 2012. The VSI was recorded, and Plach confirmed that the
recording accurately depicted his interview with B.M. The video was then entered into evidence.
Thereafter,, the following discussions were had about the .'video: ■
.“[ASA]:, [DJo you want pie to.pubjish .the video today? That would take about 54
minutes.^.
- •->

i

V

■

;: i THEjCQURTv J’m.npt going to sit,here and watch, it.
. . [ASA]:i Okay. You’U watch it in chambers then; '■ .
-

1

THE!'COURT:-Yes. Because,:6bVibuSlythisiis goi'Pg'to be'‘rhofe than-one court date.-"

So, I could view the video in chamberS'Uniess-,-yoii want to put it back in front of—i<;
[ASA]: T don’t. I just-wanted to takethe Court’s temperature on that. Then, I would
; ask for.a ten-minute recess,' Judge.
'
163

:;

• THE- COURT: Okay. All right- We’fr take ten minutes.”

:

i•

Thereafter, at the conclusion of the first day of trial , the parties again discussed the :^SI,'
and the court ensured that defendant!w6ulfl‘have5th'e bppbrtufiity to view the VSI before the
second day of trial resumed. The following'diseusSioh was had on the record;
•r- -'“THE' C'dURT:! So we’fb going to stop the witness testimony today. Ibelieve'that the
■ defendarit shouldhe able to View the VSI which is about aii hour long. ‘
*

r •*

j

r r. .

,

■■ ■ - ■ •

.

[AS>A']: Approximately 54 minutest
THE COURT: Okay. And I don’t care where that takes place as long as [defense
counsel] is with him.

1-17-2097
[DEFENSE COUNSEL]: And the deputy sheriff, I assume.
THE COURT: And the deputy sheriff. So they can either be here in the room or in the
back room or in the back room where the TV is set up. Whatever your pleasure is. ***
All I’m concerned about is that the defendant view the VSI. He Has a right to view it. I
don’t have to be here for that. The State doesn’t necessarily have to be here for that
because there’s no questioning that’s going On. It just h&S to be published, and he has to
view it. And'ihave more than enough time to view it again^ even though I did View it
'oiice before in the motion, prior to the next date where we’re going to have testimony.”
If 64

The triai was then continued for several weeks'. When the trial resumed, defense counsel
i,.- '-i :

addressed the court as follows: '

l

“Judge, on the last court date, you wanted me to sit with my client with the Victim
Sensitive Interview in the jury room. We did do that after court broke for the day;
watched it all the way through with the sheriff. I just wanted to put it on the record he has
seen it.”
No further discussions were had on the record about the VSI until the court "delivered its guilty
verdict. In finding defendant guilty, the court expressly found B.M.’s trial testimony and her
statements in her VSI to be credible and supported by the physical evidence.
1165

Although there is no dispute that defendant did not object to court’s decision to view the
VSI in chambers, we again decline the State’s invitation to equate a lack of objection to an
affirmative acquiescence. As such, we find that defendant forfeited rather than waived his claim,
and we will review his claim for plain error. See generally Sophanavong, 2020 IL 124337, ^[20. ^ Q

166

Although the right to a public trial encompasses the right to publicly present evidence and
witnesses, this court has held that a defendant’s right to a public trial is not implicated when
-30-

1-17-2097
properly admitted evidence is viewed outside the courtroom by the trier of fact. See Groebe,
2019 IL App (1st) 180503. In Groebe, the defendant, who was on trial for DUI, challenged the
circuit.court’s decision to view the video recording, of the defendant’s traffic stop and field
sobriety tests in chambers.during a break in the bench trial, arguing that manner in which the
court viewed the video violated her constitutional right to a public, trial. Id. 131. On review, we
observed that “cases addressing a defendant’s right to a public trial have largely involved the
trial court’s actual..closure, of thecourtroom for soine portion of the trial or the exclusion of some
individuals from the courtroom” and that there \vere no cases, finding that a defendant’s right to a
public trial was violated when a court viewed publicly admitted evidence privately in chambers.
Id.%36.

>e emphasized that although the court did not view the video in open ,court, the officer

wfio~conducted the defendant’s traffic stop testified in open court that he had reviewed the video
of the stop and that it accurately depicted the stop and the defendant’s performance of the field
:

•"

■

-

■■

■

•

■"

sobnety tests (Id. f 3 7./Accordingly, we concluded that the court’s viewing, of the traffic stop
■

■

■■■■■-■■■

'

■■■'

■;

■

■

'

■

video in chambers “did not implicate defendant’s right to a public trial” (id. f 38)]because
“there was no closure of the courtroom or exclusion of the public iromthe courtroom.
Rather, the foundation for the video of defendant’s traffic stop was laid in open court, and
the video was proffered into evidence in open court. The right to a public trial is not
implicated where evidence is presented in open court, and that right does not extend to
the viewing of exhibits by the public’f (id. f 40) J
This court further found that the trial court’s viewing of the traffic stop video in chambers did .
not violate the defendant’s right to be present for all critical stages of her trial either as there was
.

/;

•

;;i.

,(.v

• J'

. • ;

'

-

no evidence that the defendant’s absence rendered the proceedings unfair or resulted in the denial
of a substantial right. Tip.
................

'

51. fn so finding, we reasoned that the defendant’s substantial
\i/:.u

-31-.

1-17-2097
underlying right to confrontation was not violated because the officer who conducted the traffic

r

stop depicted in the video was subject to cross-examination in open court.'Id. ^5b-52^In/
addition, there was no evidence that the court’s private viewing of the video prejudiced the
defendant’s underlying substantial right to assist in her o’wn'defense and' decide whether to
testify. Id.^f52^ccordingly, we rejected the defendant’s claims of constitutional error.

7A

1J67

Here, as. in Groebe, the video at issiie was authenticated by a witness who testified in
open court and the video was then admitted info evidence. Specifically, Plach, the clinical social
worker who conducted B.M.’s VSI, testified in open court that he reviewed the recording and
that'it'accurately portrayed his encounter With B.M. The court then viewed the publicly admitted
video-privately in chambers! Based oh these facts, defendant’s claim that the circuit Court’s '
private viewing of the VSI violated his constitutional fight to a public trial lacks merit; See id.
140. Moreover, as in Groebe, there is no evidence'that Circuit court’s viewing of the video
privately in chambers resulted in a violation of defendant’s right to be present for all Critical
stages of his trial, as there is no evidence that the procedure resulted in an unfair trial or the
denial of an Underlying substantial constitutional right. Because'Plach was subject to in-court
cross examination about the video, defendant's underlying substantial right to confrontation was
not violated. See

1-52/Moreovef, giveh ’that defendant 'viewed' the VSI and" Was aware of

the contents-thereof prior to deciding to exercise his right to testify in his own defense! there is
no evidence that circuit court’s private viewing of the VSI video prevented him from assisting in
his own defense Or from making a fully informed decision :to exercise his right testify. See id. '
1J52..
168

-

*
In so finding, we do not find that this Court’s decision in Lucas, 2019TLAppL(-lst).

160501, compels a different result. In that case, the circuit court, like the court in Groebe,

-32-

1-17-2097
viewed a video of the defendant’s traffic stop in chambers outside of the presence of the
defendant.

After viewing the video in chambers outside of the defendant’s presence,

the court then admitted.the video into evidence .and expressly relied on the video to find the .
defendant guilty.,of DUI and several other offenses. Id. 1^f^7^)nreview, we found that the
manner in which the circuit court viewed the video of the defendant’s traffic-stop amounted to a
violation of her. right to be present for all critical stages of the proceeding because .it infringed on
'

..................

her underlying right to ‘!yiew the evidence against her pnd aid .in her own defense.”,14;. In so
finding, we emphasized that the traffic ^top videp “involved a significant portion of the evidence
against” the.defendant an4 that.there was no “affirmative evidence’’.that the.defendant had.ever
seen the video. Id. ;1l(1^j^Without viewing the video, we found,that the defendant could.not
have made a fully, informed decision whether to exercise her constitutional right to testify. Id.
................... “

“

1

‘

:

'

............................................... '........................................

11 19-20. Accordingly, because we concluded, that the.court’s yiewipg of the video at issue
ohfside of the, defendant’s presence had a “cascading impact on [her. other] fundamental rights,”
we reversed the defendant’s conviction and, remanded the cause for a new
169

The factsin.thiscasediffer.markedlyfrpm the .facts in Lucas because the record is clear
that defendant viewed theyideo.at issue. After Plach, authenticated B.M/s video apd-it >yas •.
admitted intoevjdenoe, the circuit court ensured that defendant viewed the video before the State
presented any additional evidence. Defense counsel confirmed on the record that defendant had
viewed the vide,orin hispresence. Unlike,Lucas, defendant was thps aware of all the; evidence
against him prior-to exercising his right to testify. Therefore, the court’s private viewing of the
video in chambers did not impact the fairness of defendant’s trial or violate any of defendant’s
substantial constitutional rights. Having found no error, there is no plain error. Hood, 2016 IL
118581,fl8,

1-17-2097
1J70

Moreover, having rejected each of defendant’s individual claims of constitutional error,
we necessarily reject his claim that he is entitled to a new trial based on the “cumulative effect”
of the purported errors. See People v. Green, 2017 IL App (1st) 152513, H 118 (“There generally
is no cumulative error were the alleged errors do not amount to reversible error on any individual
issue.”). Our review of the record shows that defendant’s trial was not conducted in
contravention of any of his constitutional rights. We therefore affirm the judgment of the circuit
court.
III. CONCLUSION

171
II 72

The judgment of the circuit court is affirmed.

173

Affirmed.

-34-

Additional material
from this filing is
available in the
Clerk's Office.

